APPENDIX TABLE OF CONTENTS
Opinion and Orders
Opinion of the United States Court of Appeals for
the Eleventh Circuit (May 4, 2020)................... la
Order of the United States Court of Appeals for
the Eleventh Circuit (July 11, 2018)................. 8a
Final Decision and Order of the Administrative
Review Board (June 19, 2019)........................... 13a
Order Denying Motion to Relieve Party from
Judgment, Order, or Proceeding to Set Aside
the Order Due to Fraud on the Court
(October 30, 2018)................................................ 16a
Order of the Administrative Review Board
(July 27, 2017)..........................................

21a

Final Decision and Order of the Administrative
Review Board Dismissing Untimely Appeal
(May 17, 2017)....................................................... 25a
Decision and Order of the U.S. Department of
Labor Granting Respondent’s Motion for
Summary Decision and Order Dismissing
Complaint (December 16, 2016)......................... 30a
Per Curiam Order of the United States Court of
Appeals for the Eleventh Circuit Denying
Petition for Rehearing (July, 30 2020)............ 91a

APPENDIX TABLE OF CONTENTS (Cont.)
Constitutional, Statutory,
and Judicial Rules
Constitutional, Statutory, and Judicial
Provisions Involved..........................

92a

Other Documents
Deposition of Keith Greene-Excerpt
(April 27, 2017)...........................

105a

Deposition of Michael B. Brown-Excerpt
(September 28, 2015).........................

116a

App.la
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
(MAY 4, 2020)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
MICHAEL B. BROWN,
Petitioner,
v.
U.S. DEPARTMENT OF LABOR,
Respondent.
No. 19-13120
Non-Argument Calendar
Agency No. 2015-SOX-00018
Petition for Review of a
Decision of the Department of Labor
Before: WILSON, GRANT, and LUCK, Circuit Judges.
PER CURIAM:
Michael Brown seeks review of the U.S. Depart­
ment of Labor Administrative Review Board’s deci­
sion affirming an Administrative Law Judge’s denial
of his motion to set aside the final judgment on his
retaliation claim in favor of his former employer,
Synovus Financial Corporation, under the SarbanesOxley Act, 18 U.S.C. § 1514A. We deny his petition.

App.2a

Factual Background and Procedural History
The underlying proceedings concerned an employ­
ment dispute. Brown argued that his former employer,
Synovus, retaliated against him for whistleblowing,
in violation of the Sarbanes-Oxley Act. Synovus moved
for summary judgment, which the ALJ granted. In
making his decision, the ALJ relied in part on
Brown’s deposition testimony that he was “terminated
before he could report the fraud.” Three months after
the ALJ’s decision, Brown appealed to the board. The
board affirmed because Brown did not appeal the
ALJ’s decision within the required fourteen days. See
29 C.F.R. § 1980.110(a) (Mar. 2015). Brown then
filed a petition in this court. We denied Brown’s
petition because, we emphasized, Brown did not file
a direct appeal with the board by the fourteen-day
deadline and, instead, attempted to file a Federal
Rule of Civil Procedure 60(d)(3) motion, arguing that
“the ALJ intentionally omitted and misrepresented
facts in favor of Synovus.” See Brown v. Sec’y of
Labor; 739 F. App’x 978, 979 (llth Cir. 2018) (“Brown
/”) (unpublished). “The Board construed [that] motion
as a petition for review and stated that it was untimely.”
Id. Agreeing with that decision, we concluded that
the “Board did not err in construing [Brown’s] motion
to set aside the ALJ’s order as a petition for review
instead of a Rule 60(d)(3) motion,” and “the Board
did not err in denying [Brown’s] motion as untimely.”
Id, at 980.
Shortly after, Brown filed what he termed to be
a “Rule 60(d)(l)(3) Motion, Brief, and Independent
Action ... to set Aside the Order Due to Fraud on
the Court” with the U.S. Department of Labor’s
Office of Administrative Law Judges. In his motion,

App.3a

he contended that the previous ALJ misrepresented
the facts and misapplied the law. A new ALJ denied
Brown’s motion. Because Brown “focus[ed] on the
notion of ‘fraud upon the court,”’ the new ALJ construed
Brown’s motion as one that fell exclusively under
rule 60(d)(3). The new ALJ found that, to set aside a
judgment under rule 60(d)(3), the alleged fraud had
to have been based on information that was dis­
coverable only after the previous ALJ’s decision. But
Brown’s motion, the new ALJ continued, was based
on information known to him at the time of the previ­
ous ALJ’s decision. The new ALJ also determined that
even if the previous ALJ improperly found facts and
misapplied the law, his actions did not rise to the
level of fraud required for relief under rule 60(d)(3).
Brown’s motion, the new ALJ said, was “an attempt
to re-argue his case, and not a demonstration of any
type of fraud.” The new ALJ concluded that Brown
forfeited his right to challenge the previous ALJ’s
factual findings and legal conclusions when Brown
failed to timely file a petition for review. For all these
reasons, the new ALJ denied Brown’s rule 60(d)(3)
motion.
Brown appealed to the board, and the board
“adoptted]” the new ALJ’s decision, concluding that
Brown “failed to allege proper grounds of fraud on
the court” and merely attempted to “relitigate his
[previous] case in the form of a motion for relief.”
Brown now seeks review of the board’s decision.
Standard of Review
Our review of the board’s decision is governed by
the Administrative Procedure Act. Stone & Webster
Const., Inc. v. U.S., Dep’t ofLabor, 684 F.3d 1127,1132

App.4a

(llth Cir. 2012). “We conduct de novo review of the
[boardl’s legal conclusions, but we test the [boardl’s
factual findings for substantial evidence.” Id. “The
substantial evidence standard limits the reviewing
court from deciding the facts anew, making credibility
determinations, or re-weighing the evidence.” Id. at
1133 (internal quotation marks omitted).
Discussion
Brown contends that the board erred in not
setting aside the summary judgment in favor of his
former employer because: (l) the board relied on
collateral estoppel to reject his fraud arguments; (2)
he was entitled to relief under rule 60(b)(4); (3) the
board did not address his claim under rule 60(d)(1);
and (4) the first ALJ committed fraud on the court,
in violation of rule 60(d)(3), by altering Brown’s depo­
sition testimony to create the impression that Brown
failed to meet the whistleblowing requirements of
S arb ane s-Oxley.
1. Collateral Estoppel.
The board did not base its decision, or even men­
tion, collateral estoppel, so we won’t review the board’s
order under the collateral estoppel doctrine. See Fla.
Dep’t of Labor & Emp’t Sec’y v. U.S. Dep’t of Labor,
893 F.2d 1319, 1321-22 (llth Cir. 1990) (“[A] reviewing
court, in dealing with a determination or judgment
which an agency alone is authorized to make, must
judge the propriety of such action solely by the grounds
invoked by the agency.” (internal quotation marks
omitted)).

App.5a

2. Rule 60(b)(4).
We will not consider Brown’s rule 60(b)(4) argu­
ment because he raised it for the first time on appeal.
See Access Now, Inc. v. Sw. Airlines Co., 385 F.3d
1324, 1331 (llth Cir. 2004) (“This Court has repeatedly
held that an issue not raised in the district court and
raised for the first time in an appeal will not be
considered by this court.” (internal quotation marks
omitted)).
3. Rule 60(d)(1).
The board properly construed Brown’s motion as
having been made under rule 60(d)(3) rather than
rule 60(d)(1) because his sole argument—fraud on
the court—was a rule 60(d)(3) argument. See United
States v. Jordan, 915 F.2d 622, 624—25 (llth Cir.
1990) (“Federal courts have long recognized that they
have an obligation to look behind the label of a
motion filed by a pro se inmate and determine whether
the motion is, in effect, cognizable under a different
remedial statutory framework.”).
4. Rule 60(d)(3).
Rule 60(d)(3) gives a court the power to “set
aside a judgment for fraud on the court.” See Fed. R.
Civ. P. 60(d)(3). Fraud on the court is “only that
species of fraud which does or attempts to, defile the
court itself, or is a fraud perpetrated by officers of the
court so that the judicial machinery cannot perform in
the usual manner its impartial task of adjudging
cases.” Travelers Indem. Co. v. Gore, 761 F.2d 1549,
1551 (llth Cir. 1985). “Where relief from a judgment
is sought for fraud on the court, the fraud must be

App.6a
established by clear and convincing evidence.” Booker
v. Dugger, 825 F.2d 281, 283 (11th Cir. 1987).
Brown’s rule 60(d)(3) argument fails for three
reasons. First, the only evidence to support Brown’s
allegation of judicial misconduct was his own conclusory
allegations. But conclusory allegations are insufficient
to support a finding of fraud. See Booker, 825 F.2d at
283—84 (“Conclusory averments of the existence of
fraud made on information and belief and unaccom­
panied by a statement of clear and convincing pro­
bative facts which support such belief do not serve to
raise the issue of the existence of fraud.” (internal
quotation marks and alterations omitted)). Second,
even assuming the ALJ misconstrued Brown’s deposi­
tion testimony, this error would not amount to fraud.
At most, the ALJ made a factual error, which is not
fraud under rule 60(d)(3). See First Natl Life Ins. Co.
v. Cal. Pac. Life Ins. Co., 876 F.2d 877, 883 (llth Cir.
1989) (noting that a “careless . . . factual error” did
not “amountO to fraud”). And third, Brown had to show
that the alleged fraud could not have been discovered
by due diligence. See Aldana v. Del Monte Fresh
Produce N.A., Inc., 741 F.3d 1349, 1359 (llth Cir.
2014); see also Travelers, 761 F.2d at 1552 C‘[F]or fraud
to lay a foundation for an independent action, it must
be such that it was not in issue in the former action
nor could it have been put in issue by the reasonable
diligence of the opposing party.”). That is not the
case here. Brown knew of the alleged fraud at the
time of the ALJ’s decision. He knew what was in the
ALJ’s order and what was in his deposition.

App.7a
Conclusion
Because Brown presents no grounds to set aside
the underlying judgment in favor of his former
employer, the board did not err in affirming the
ALJ’s denial of Brown’s rule 60(d)(3) motion.
PETITION DENIED.

App.8a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
(JULY 11, 2018)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
MICHAEL B. BROWN,
Petitioner,
v.
SECRETARY OF LABOR,
Respondent.
No. 17-13151
Non-Argument Calendar
Agency No. 2017-037
Petition for Review of a
Decision of the Department of Labor
Before: Ed CARNES, Chief Judge,
HULL, and Julie CARNES, Circuit Judges.
PER CURIAM:
Michael B. Brown, proceeding pro se, appeals the
Administrative Review Board’s order dismissing as
untimely his petition for review of the administrative
law judge’s denial of his Sarbanes-Oxley whistleblower
complaint. He also appeals the Board’s order denying
his motion for reconsideration.

App.9a

Brown worked as an audit manager at Synovus
Financial Corporation from November 2007 to January
2014, when he was fired. In July 2014 he filed a
counseled whistleblower complaint with the Occupa­
tional Safety and Health Administration alleging that
Synovus retaliated against him after he complained
about potential Sarbanes-Oxley violations. After an
investigation, OSHA dismissed his complaint in April
2015, finding that there was no reasonable cause to
believe that Synovus violated the Sarbanes-Oxley
Act when it fired him. Brown objected to that finding
and requested a hearing before an ALJ. Brown also
retained a new attorney to represent him before the
ALJ. Synovus then moved for summary judgment,
which the ALJ granted on Friday, December 16, 2016.
Brown had 14 days to appeal the ALJ’s decision
to the Administrative Review Board, which means
that he had to file his petition for review by Friday,
December 30, 2016. See 29 C.F.R. § 1980.110(a) (Mar.
2015). He did not file an appeal by that deadline.
Instead, on April 6, 2017—over three months after
the deadline—he filed a pro se “Motion and Brief to
Set Aside the Order Due to Fraud on the Court” under
Federal Rule of Civil Procedure 60(d)(3),! alleging
that the ALJ intentionally omitted and misrepre­
sented facts in favor of Synovus. The Board construed
the motion as a petition for review and stated that it
was untimely. But because the 14-day appeal deadline
is not jurisdictional and is subject to equitable
tolling, the Board ordered Brown to show cause as to
why his petition should not be dismissed as untimely.
1 Rule 60(d)(3) allows a court to “set aside a judgment for fraud
on the Court.”

App.lOa

Brown responded to the show cause order by
arguing that equitable tolling should apply because
his attorney was ineffective. He stated that after
receiving the ALJ’s order on December 19, 2016, he
immediately called his attorney to discuss an appeal.
He spoke with and visited his attorney over the next
several days and stated that he believed that his
attorney had filed his appeal by the December 30
deadline. But on January 14, 2017, he learned that
his attorney had failed to file a timely appeal with
the Board. Brown attached a sworn affidavit from his
attorney confirming those allegations. Synovus argued
in response that the Board had repeatedly rejected
ineffective assistance as a ground for equitable tolling.
On May 17, 2017, the Board issued an order deny­
ing Brown’s petition on the ground that attorney
error does not permit equitable tolling. It also noted
that even though Brown learned on January 14, 2017,
that his attorney had not filed an appeal, Brown did
not file an appeal within 14 days from that date;
instead, Brown waited over three months to file his
motion. Brown filed a pro se motion for reconsidera­
tion requesting that the Board entertain an indepen­
dent action to reconsider its decision and to set aside
the ALJ’s order for fraud on the court. The Board
denied that motion on the ground that it did not
address any of the Board’s grounds for granting a
motion for reconsideration. This is his appeal.
We review the Board’s “decision pursuant to the
standard of review outlined in the Administrative
Procedure Act.” DeKalb County v. U.S. Dep’t of
Labor, 812 F.3d 1015, 1020 (llth Cir. 2016) (quotation
marks omitted). We review de novo the Board’s legal
conclusions and its “factual findings are reversed

App.lla

only if unsupported by substantial evidence on the
record as a whole.” Id. (quotation marks omitted).
Brown contends that the Board erred in construing
his motion to set aside the ALJ’s decision as a
petition for review, instead of a motion under Rule
60(d)(3), and that it erred in dismissing his motion as
untimely. He also contends that the Board erred in
denying his motion for reconsideration. Brown’s
contentions fail.
The Board did not err in construing his motion
to set aside the ALJ’s order as a petition for review
instead of a Rule 60(d)(3) motion. The Board liberally
construes pro se filings, Svendsen v. Air Methods,
Inc., ARB Case No. 03-074, 2004 WL 1923132, at *1
n.2 (Aug. 26, 2004), and there is no authority for
Brown’s argument that the Board is required to follow
the Federal Rules of Civil Procedure, see Henrich v.
Ecolab, Inc., ARB Case No. 05-030, 2007 WL 7143174,
at *5 (May 30, 2007) (“Adopting the entire Federal
Rules of Civil Procedure would prevent the Board
from exercising the greater authority it possesses as
the decision-maker for the Department of Labor.”).
The Board also did not err in denying Brown’s
petition as untimely. The ALJ issued its decision on
December 16, 2017, which gave Brown until December
30, 2017 to file his appeal with the Board. 29 C.F.R.
§ 1980.110(a). But, as Brown admits, he did not timely
file an appeal, and his argument that attorney error
warrants equitable tolling is a non-starter. See, e.g.,
Higgins v. Glen Raven Mills, Inc., ARB Case No. OS143, at *9 & n.60 (Sept. 29, 2006) (“In considering
whether attorney error constitutes an extraordinary
factor for tolling purposes, the Board has consist­
ently held that it does not because ultimately, clients

App.l2a
are accountable for the acts and omissions of their
attorneys.”) (quotation marks and alterations omitted)
(collecting cases). And, as the Board noted, even if
equitable tolling did apply, once Brown learned on
January 14, 2017, that his attorney did not file his
appeal, he had another 14 days to file that appeal.
See id.; see also 29 C.F.R. § 1980.110(a). But instead of
doing that, he waited over three months until April 6,
2017, to file his motion with the Board. As a result, the
Board did not err in denying his motion as untimely.2
Finally, the Board did not err in denying Brown’s
motion for reconsideration, which did not address
any of the Board’s grounds for reconsideration and
was simply an attempt to relitigate his petition. See
Kirk v. Rooney Trucking Inc., ARB No. 14-035, at *2
(Mar. 24, 2016) (denying motion for reconsideration
where party failed to address the Board’s grounds for
reconsideration, which include material differences
in fact or law from what was presented to the Board
and which the movant could not have known through
reasonable diligence; new material facts or a change
in law arising after the Board’s decision; or failure to
consider material facts presented to the Board before
its decision).
PETITION DENIED.
2 Brown also argues the merits of the original whistleblower
complaint that he filed, but because the Board dismissed his
petition on procedural grounds, we do not address the merits of
his complaint. See Fla. Dep’t ofLabor & Emp’t Sec’y v. U.S. Dep’t
of Labor, 893 F.2d 1319, 1321 (llth Cir. 1990) (“As a general
rule in administrative law cases, a reviewing court may not affirm
an agency decision on grounds not addressed by the agency,
but, rather, will remand for the agency to address the issue in
the first instance”).

App.l3a
FINAL DECISION AND ORDER OF THE
ADMINISTRATIVE REVIEW BOARD
(JUNE 19, 2019)
U.S. DEPARTMENT OF LABOR
Administrative Review Board
200 Constitution Avenue, N.W
Washington, D.C. 20210
In the Matter of:
MICHAEL B. BROWN,
Complainant,
v.
SYNOVUS FINANCIAL CORP.,
Respondent.
ARB Case No. 2019-0007
ALJ Case No. 2015-SOX-018
Before: William T. BARTO, Chief Administrative
Appeals Judge and James A. HAYNES and
Daniel T. GRESH, Administrative Appeals Judges.
This case arises under the whistleblower provision
of the Sarbanes-Oxley Act of 2002 (SOX), 18 U.S.C.
§ 1514A (2010) and its implementing regulations at
29 C.F.R. Part 1980 (2015). Brown brought his original
complaint (Brown I) against Synovus Financial
Corporation in 2014. The Occupational Safety and
Health Administration (OSHA) dismissed the com-

App.l4a

plaint. Brown objected and requested a hearing. The
Administrative Law Judge (ALJ) subsequently as­
signed to the case granted Synovus’s motion for
summary decision on December 16, 2016 and provided
Brown notice of his right to timely appeal the ALJ’s
decision. The SOX’s whistleblower provision gives
parties fourteen days to appeal an ALJ’s decision. 29
C.F.R. 1980.110(a). On April 6, 2017, over three
months after the ALJ’s decision, Brown filed a motion
with the Administrative Review Board (ARB or Board)
to set aside the ALJ’s decision for alleged “fraud on
the Court.” The ARB treated Brown’s motion as a
petition for review and denied it as untimely filed.
Brown v. Synovus Financial Corp., ARB No. 17-037,
ALJ No. 2015-SOX-018 (ARB May 17, 2017). After
the ARB denied Brown’s subsequent motion for
reconsideration, Brown appealed the ARB’s final
decision to the United States Court of Appeals for
the 11th Circuit, which affirmed the ARB’s decision.
Brown v. Sec’y of Labor, No. 17-13151, 739 Fed. Appx.
978 (llth Cir., July 11, 2018)(unpub.). The court
also denied Brown’s subsequent motion for reconsi­
deration.
Following the court’s denial, Brown filed a
motion with the ALJ for relief under Fed. R. Civ. P.
60(d), again asserting fraud on the court (Brown II).
On October 30, 2018, the ALJ denied his motion,
concluding specifically that Brown alleged no new
information or discovery of fraud but rather moved
for relief based on facts and content already known
to him in December 2016 when the matter was
before the ALJ the first time. The ALJ found that
Brown’s motion for relief was an attempt to reargue

App.l5a

his case which the ARB and the court of appeals had
already denied.
Brown has now petitioned the ARB for review of
the ALJ’s decision. 1 Upon review of the ALJ’s Order,
we conclude that the ALJ’s Order is well-reasoned
and based on the undisputed facts and the applicable
law. The ALJ properly concluded that the motion
failed to allege proper grounds of fraud on the court.
The ALJ correctly concluded that Brown seeks to
relitigate his case in the form of a motion for relief.
Accordingly, we adopt and attach the ALJ’s Order
Denying Motion to Relieve Party from Judgment,
Order, or Proceeding to Set Aside the Order due to
Fraud on the Court. Brown’s Motion at issue is thereby
DENIED.

1 The ARB has jurisdiction to review the ALJ’s decision under
Secretary’s Order No. 01-2019 (Delegation of Authority and Assign­
ment of Responsibility to the Administrative Review Board), 84
Fed. Reg. 13,072 (Apr. 3, 2019) and 29 C.F.R. Part 1980.110.
The ARB reviews the ALJ’s factual determinations for substantial
evidence and conclusions of law de novo. Dietz v. Cypress
Semiconductor Corp., ARB No. 15-017, ALJ No. 2014-SOX-002,
slip op. at 6 (ARB Mar. 30, 2016); see 29 C.F.R. 1980.110(b).

App.l6a
ORDER DENYING MOTION TO RELIEVE
PARTY FROM JUDGMENT, ORDER, OR
PROCEEDING TO SET ASIDE THE ORDER
DUE TO FRAUD ON THE COURT
(OCTOBER 30, 2018)
U.S. DEPARTMENT OF LABOR
Administrative Review Board
200 Constitution Avenue, N.W
Washington, D.C. 20210
In the Matter of:
MICHAEL B. BROWN,
Complainan t,
v.
SYNOVUS FINANCIAL CORP.
Respondent.
Case No. 2015-SOX-018
Before: Paul C. JOHNSON. Jr.,
District Chief Administrative Law Judge.
This matter was docketed in the Office of Adminis­
trative Law Judges on May 22, 2015, and assigned to
Administrative Law Judge Alan L. Bergstrom, On
December 16, 2016, Judge Bergstrom granted a motion
for summary decision filed by Respondent Synovus
Financial Corp.

App.l7a

On October 10, 2018, Complainant Michael B.
Brown filed a motion entitled “Complainant Michael
B. Brown’s Rule 60(d)(3) Motion, Brie and Independent
Action to Relieve a Party from a Judgment, Order, or
Proceeding to Set Aside the Order Due to Fraud on
the Court.” Respondent Synovus Financial Corporation
filed a timely response. For the reasons set forth
below, Mr. Brown’s motion will be denied. 1
Background
Complainant filed a complaint under the employeeprotection provisions of the Sarbanes-Oxley Act on
July 3, 2014. He alleged that Synovus retaliated
against him by reassigning him, placing him on a
performance improvement program, and ultimately
terminating him, after he raised concerns about the
company’s disregard of his audits and its blocking
him from reporting his concerns to management.
After the required investigation, OSHA determined
that there was no reasonable cause to believe that
Synovus violated Mr. Brown’s rights under SOX. Mr.
Brown objected to that determination and requested
a hearing, and the matter was forwarded to the
Office of Administrative Law Judges, where it was
assigned to ALJ Alan L. Bergstrom.
On December 16, 2016, Judge Bergstrom issued
a Decision and Order granting Synovus’ motion for
summary decision and dismissing the complaint.
That Decision and Order informed Mr. Brown of his
1 Mr. Brown has also filed a complaint of judicial misconduct
against Judge Bergstrom. That matter has been referred to the
Chief Administrative Law Judge, and will not be addressed in
this Order.

App.l8a

appeal rights, and instructed him that any appeal to
the Administrative Review Board must be filed within
14 days of the date of Judge Bergstrom’s decision.
Complainant did not appeal to the An within 14 days.
On April 6, 2017—79 days after Judge Bergstrom’s
Decision and Order—Mr. Brown filed a Motion and
Brief to Set Aside the Order Due to Fraud Upon the
Court. The ARB construed that motion as a petition
for review of Judge Bergstrom’s decision, and ultimately
denied the petition as untimely. Complainant appealed
the ARB’s decision to the U.S. Court of Appeals for
the 11th Circuit that Court affirmed the ARB’s
dismissal of his appeal on July 11, 2018. By order
dated September 10, 2018, the Court of Appeals
denied Mr. Brown’s motion for reconsideration of its
decision affirming the ARB. Mr. Brown thereafter
filed the motion that is before me now.
Discussion
Mr. Brown brings his motion under Rule 60(d) (3)2
of the Federal Rules of Civil Procedure. That rule
provides that it “does not limit a court’s power to . . . set
aside a judgment for fraud on the court.” He argues
that Judge Bergstrom misrepresented and miscon­
strued the facts, and misapplied the-law, in granting
summary decision to Synovus.
The proper procedure to challenge a ruling of an
administrative law judge in a SOX proceeding is to
petition the ARB for a review of that ruling. As Judge
2 Complainants styles it as a motion under Rule 60(d)(3), but
there is no such rule. Given his focus on the notion o [“fraud
upon the court,” I conclude that the motion is brought under Rule
60(d)(3).

App.l9a

Bergstrom advised Mr. Brown in the December 2016
Decision and Order:
To appeal, you must file a Petition for
Review (‘Petition”) with the Administrative
Review Board (“Board”) within fourteen (14)
days of the date of issuance of the adminis­
trative law judge’s decision.
This Mr. Brown did not do. He filed nothing with the
ARB for several months, and when he did, it was not
a petition for review. The .ARB nevertheless chose to
construe it as a petition for review, and denied it as
untimely, noting that not only did Mr. Brown fail to
file it within 14 days of the Decision and Order, he
failed to file it within 14 days of becoming aware that
his previous attorney had not filed it either. By
falling to file a timely petition for review, Mr. Brown
forfeited his right to have Judge Bergstrom’s Decision
and Order examined for factual and legal correctness.
Having chosen to sit on his rights, he cannot now re­
litigate his case.
Mr. Brown points out that there is no time limit
for bringing a Rule 60(d)(3). motion; and that is
true.3 Rad be discovered for the first time, almost
three years after the Decision and Order, that there
had been fraud, he might be able to bring such a
motion. But in this case, Mr. brown bases his entire
argument on evidence that was known to him before
December of 2016, and on statements and analysis
by Judge Bergstrom that became known to him in
that month. This is clearly an attempt to re-argue
3 I assume for the sake of this Order that Rule 60(d)(3) is
applicable to administrative hearings in the Department al Labor,
although that is far from clear.

App.20a

his case, and not a demonstration of any type of
fraud, and it is precisely the type of argument that
should have been made on appeal to the ARB.
Finally, I note that Mr. Brown has not alleged
any fraud on the ALJ, but has alleged fraud by the
ALJ. The case law he cites, as well as that cited by
Respondent, establishes the proposition that Rule
60(d)(3) is implicated when there, has been egregious
misconduct by a party in the case, not by the court
itself. For example, the Eleventh Circuit has held
that “only the most egregious misconduct, such as
bribery of a judge or members of a jury, or the
fabrication of evidence by a party in which an attorney
is implicated, will constitute a fraud on the court.”
Gupta v. Walt Disney World Co., 482 F. App’x 458,
459 (llth Cir. 2012); Rozier v. Ford Motor Co., 573
F.2d 1332, 1338 (5th Cir. 1978). Even assuming that
Judge Bergstrom improperly found the facts and
misapplied the law, his actions (a) are not fraudulent,
(b) even if deemed fraudulent, do not rise to the level
of fraud required for Rule 60(d)(3) relief, and (c)
clearly are not a fraud on the court.
ORDER
For the foregoing reasons, IT IS ORDERED that
Complainant Michael B. Brown’s Rule 60(d)(3) motion
is DENIED.
SO ORDERED.

/si Paul C. Johnson. Jr
District Chief Administrative Law Judge

App.21a
ORDER OF THE
ADMINISTRATIVE REVIEW BOARD
(JULY 27, 2017)
U.S. DEPARTMENT OF LABOR
Administrative Review Board
200 Constitution Avenue, N.W
Washington, D.C. 20210
In the Matter of:
MICHAEL B. BROWN,
Complainant,
v.
SYNOVUS FINANCIAL CORP.
Respondent.
ARB Case No. 17-037
ALJ Case No. 2015-SOX-018
Before: PaulM. IGASAKI, Chief Administrative
Appeals Judge and Leonard J. HOWIE III,
Administrative Appeals Judge.
BEFORE: THE ADMINISTRATIVE REVIEW BOARD
On May 17, 2017, the Administrative Review
Board issued a Final Decision and Order Dismissing
Untimely Appeal in this case arising under the
employee protection provisions of the Sarbanes-Oxley

App.22a

Act of 2002 (SOX).l Initially, the Board rejected Com­
plainant Michael B. Brown’s Motion and Brief to Set
Aside the Order Due to Fraud on the Court con­
cluding that:
The Secretary of Labor has delegated to the
Board the limited responsibility to act for
the Secretary and issue final agency decisions
in review or upon appeal of final decisions
of Department of Labor Administrative Law
Judges (and the Wage and Hour Adminis­
trator and his or her authorized representa­
tive). To invoke the Board’s authority to
review a decision of an ALJ under the SOX’s
employee protection provisions, the party
must file a petition for review within 14 days
of the date of the ALJ’s decision. Complainant
has not filed a petition for review of an
Administrative Law Judge’s decision in this
case. Instead he has filed a Motion and Brief
to Set Aside the Order Due to Fraud on the
Court. Brown has not cited to any authority
that would permit the Board to consider
such a motion. However, given Brown’s pro
se status, the Board will consider the Motion
to constitute a petition for review of the
ALJ’s decision.[2]
Considering Brown’s Motion as a Petition for Review,
the Board ultimately concluded that because the
“petition” was not filed within the applicable limitations
1 18 U.S.C.A. § 1514A (Thomson West Supp. 2016). SOX’s imple­
menting regulations are found at 29 C.F.R. Part 1980 (2016).
2 Brown v. Synovus Financial Corp., ARB No. 17-037, ALJ No.
2015-SOX-018, slip op. at 2, (ARB May 17, 2017).

App.23a

period (14 days) of the date on which Brown learned
that his attorney had failed to file a petition, after
telling Brown he would do so, it was not timely.3
On June 19, 2017, Brown filed “Complainant
Michael B. Brown’s Motion for the Board to Entertain
an Independent Action to Reconsider its May 17, 2017
Final Decision and Order and Relieve the Complainant
from the Decision and Order and Motion for the Board
to Entertain an Independent Action to Set Aside the
Court Order Due to Fraud on the Court.” The Board
has authority to reconsider its SOX decisions upon a
timely motion for reconsideration.4 We have previously
identified four non-exclusive grounds for reconsidering
a final decision and order. The grounds for reconsid­
eration include, but are not limited to, whether the
movant has demonstrated:
(i) material differences in fact or law from
that presented to [the Board] of which the
moving party could not have known through
reasonable diligence, (ii) new material facts
3 Id. at 2-3. Accord Hillis v. Knochel Bros., Inc., ARB Nos. 03136, 04-081, 04-148; AU No. 2002-STA-050, slip op. at 8-9
(ARB Reissued Mar. 31, 2006) (citing Socop-Gonzales v. INS,
272 F.3d 1176, 1195 (9th Cir. 2001) (90-day limitations period
began to run on the date Socop first learned that there was a
problem with his attempt to adjust his immigration status, i.e.
from the date of the action that gave rise to his entitlement to
equitable tolling)). In this case the date that gave rise to
Brown’s entitlement to equitable tolling was the date on which
he learned that his attorney had not filed the petition for review
as he said he would i.e., January 14, 2017.
4 Secretary’s Order No. 2-2012 (Delegation of Authority and Assign­
ment of Responsibility to the Administrative Review Board), 77
Fed. Reg. 69,378 (Nov. 16, 2012).

App.24a

that occurred after the [Board’s] decision,
(iii) a change in the law after the [Board’s]
decision, and (iv) failure to consider material
facts presented to the [Board] before its
decision. [5]
Brown’s motion does not address any of the Board’s
well-established grounds for granting reconsideration
nor does it proffer any additional grounds that would
justify such reconsideration.
In essence, Brown re-argues the merits of his
contention that the Boards should consider his motion
alleging fraud on the court and his argument that
special circumstances exist to justify his failure to
timely file his petition for review. Accordingly, because
Brown has failed to demonstrate any of the four
grounds the Board has recognized as sufficient to
justify reconsideration, nor any other sufficient ground,
we DENY his motion for reconsideration.
SO ORDERED.
/s/ Paul M. Igasaki
Chief Administrative Appeals Judge
/s/ Leonard J. Howie III
Administrative Appeals Judge

5 Kirk v. Rooney Trucking, ARB No. 14-035, AU No. 2013-STA042, slip op. at 2 (ARB Mar. 24, 2016); OFCCP v. Fla. Hosp. of
Orlando, ARB No.11-011, ALJ No. 2009-OFC-002, slip op. at 4,
n.4 (ARB July 22, 2013) (Order Granting Motion for Reconsid­
eration and Vacating Final Decision and Order Issued Oct. 19,
2012) (citation omitted).

App.25a
FINAL DECISION AND ORDER
OF THE ADMINISTRATIVE REVIEW BOARD
DISMISSING UNTIMELY APPEAL
(MAY 17, 2017)
U.S. DEPARTMENT OF LABOR
Administrative Review Board
200 Constitution Avenue, N.W
Washington, D.C. 20210
In the Matter of:
MICHAEL B. BROWN,
Complainant,
v.
SYNOVUS FINANCIAL CORP.,
Respondent.
ARB Case No. 17-037
ALJ Case No. 2015-SOX-018
Before: Paul M. IGASAKI, Chief Administrative
Appeals Judge and Leonard J. HOWIE III,
Administrative Appeals Judge.
BEFORE: THE ADMINISTRATIVE REVIEW BOARD
On December 16, 2017, a Department of Labor
Administrative Law Judge issued a Decision and
Order—Granting Respondent’s Motion for Summary
Decision and Order Dismissing Complaint (D. & O.)

App.26a

in this case arising under the employee protection
provisions of the of the Sarbanes-Oxley Act of 2002
(SOX).l On April 6, 2017, Complainant Michael B.
Brown filed, with the Administrative Review Board,
a Motion and Brief to Set Aside the Order Due to
Fraud on the Court.
The Secretary of Labor has delegated to the
Board the limited responsibility to act for the Secretary
and issue final agency decisions in review or upon
appeal of final decisions of Department of Labor
Administrative Law Judges (and the Wage and Hour
Administrator and his or her authorized repre­
sentative)^ To invoke the Board’s authority to review
a decision of an ALJ under the SOX’s employee
protection provisions, the party must file a petition
for review within 14 days of the date of the ALJ’s
decision.3 Complainant has not filed a petition for
review of an Administrative Law Judge’s decision in
this case. Instead he has filed a Motion and Brief to
Set Aside the Order Due to Fraud on the Court. Brown
has not cited to any authority that would permit the
Board to consider such a motion. However, given
Brown’s pro se status, the Board will consider the
Motion to constitute a petition for review of the ALJ’s
decision.
But, as such, Complainant filed his petition more
than 14 days after the ALJ issued his D. & O. Never1 18 U.S.C.A. § 1514A (Thomson West Supp. 2016). SOX’s imple­
menting regulations are found at 29 C.F.R. Part 1980 (2016).
2 Secretary’s Order No. 2-2012 (Delegation of Authority and Assign­
ment of Responsibility to the Administrative Review Board), 77
Fed. Reg. 69,378 (Nov. 16, 2012).
3 D. & O. at 29. See also 29 C.F.R. § 1980.110(a) (2016).

App.27a

theless, the period for filing a petition for review with
the ARB is not jurisdictional and therefore is subject
to equitable modification.4 In determining whether the
Board should toll a statute of limitations, we have
recognized four principal situations in which equitable
modification may apply: (l) when the defendant has
actively misled the plaintiff regarding the cause
of action; (2) when the plaintiff has in some extraor­
dinary way been prevented from filing his action; (3)
when the plaintiff has raised the precise statutory
claim in issue but has done so in the wrong forum,
and (4) where the defendant’s own acts or omissions
have lulled the plaintiff into foregoing prompt attempts
to vindicate his rights.5 But the Board has not found
these situations to be exclusive, and an inability to
satisfy one is not necessarily fatal to Brown’s claim.6
Brown bears the burden of justifying the applica­
tion of equitable tolling principles.7 Accordingly, we
ordered him to show cause why the Board should not
dismiss his petition because he failed to timely file it.
In response, Brown replies that ineffective assistance
of counsel constituted an extraordinary way in which
he was prevented from timely filing his petition. In
4 Accord Hillis v. Knochel Bros., ARB Nos. 03-136, 04-081, 04148; ALJ No. 2002-STA-050, slip'op. at 3 (ARB Oct. 19, 2004);
Overall v. Tennessee Valley Auth., ARB No. 98-011, AU No.
1997-ERA-053, slip op. at 40-43 (ARB Apr. 30. 2001).
5 Selig v. Aurora Flight Sciences, ARB No. 10-072, ALJ No. 2010AIR-010, slip op. at 3 (ARB Jan. 28, 2011).
6 Id. at 4.
7 Accord Wilson v. Sec’y, Dep’t of Veterans Affairs, 65 F.3d 402,
404 (5th Cir. 1995) (complaining party in Title VII case bears
burden of establishing entitlement to equitable tolling).

App.28a

support of this basis for equitable tolling, Brown
avers that he was in contact with his counsel on sev­
eral occasions after the ALJ issued his decision and
that On the day the petition for review was due to be
filed at the Board, his counsel assured him that it
would be filed. Brown’s contention is supported by a
Declaration from his counsel, Marcus G. Keegan,
stating that Keegan indicated to Brown on December
30, 2016, that he would file the petition, but that he
failed to do so.8
The Board has consistently held that equitable
tolling is generally not appropriate when a complainant
is represented by counsel because counsel is “pre­
sumptively aware of whatever legal recourse may be
available to [his or her] client.”9 Thus, attorney error
does not constitute an extraordinary factor because
“[ultimately, clients are accountable for the acts and
omissions of their attorneys.” 10 We do note that this
appears to be particularly egregious conduct by the
attorney in this case. He admitted that he told
Brown on the day that the petition was due that he
would file it and then failed to do so. But even if we
made an exception for this extraordinarily serious
breach of an attorney’s obligation to his client, Brown
still could not prevail on his claim for equitable tolling.

8 Declaration of Marcus G. Keegan, Exhibit B to Complainant’s
Response to the Order to Show Cause.
9 Sysko v. PPL Corp., ARB No. 06-138, ALJ No. 2006-ERA-023,
slip op. at 5 (ARB May 27, 2008)(quoting Mitchell v. EG&G, No.
1987-ERA-022, slip op. at 8 (Sec’y July 22, 1993)).
19 Higgins v. Glen Raven Mills, Inc., ARB No 05-143, ALJ No.
2005-SDW-007, slip op. at 9 (ARB Sept. 29, 2006).

App.29a

Brown admitted that he learned on January 14,
2017, that his attorney had failed to file the petition
for review. Even if the period for filing had been
tolled during the period Brown was unaware that
Keegan had failed to file the petition as he said he
would, once Brown was put on notice of this fact, the
limitations period began to run anew. Nevertheless,
Brown failed to file a petition for review within 14
days of the date that Keegan informed him that his
attorney had not filed the petition. Brown states that
he continued to attempt to work with Keegan after
January 14th to “get as much information as he could
from counsel” and that he filed a grievance with the
State Bar of Georgia. But Brown has failed to estab­
lish any sufficient grounds for his failure to file a
petition for review or to request additional time in
which to do so, by January 28, 2017.
Accordingly, as Brown has failed to file a timely
petition for review or to demonstrate sufficient grounds
to entitle him to equitable tolling, his petition is
DENIED as untimely and this case is closed.
SO ORDERED.

/s/ Paul M. Igasaki
Chief Administrative Appeals Judge
/s/ Leonard J. Howie III
Administrative Appeals Judge

